APPENDIX

1a
APPENDIX A
_________
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
_________
No. 17-17351
_________
ENIGMA SOFTWARE GROUP USA, LLC,
Plaintiff-Appellant,
v.
MALWAREBYTES, INC.,
Defendant-Appellee.
_________
Appeal from the United States District Court
for the Northern District of California
Edward J. Davila, District Judge, Presiding
Argued and Submitted February 15, 2019
San Francisco, California
Filed September 12, 2019
Amended December 31, 2019
Before: Mary M. Schroeder and Johnnie B.
Rawlinson, Circuit Judges, and Robert S. Lasnik,*
District Judge.
Opinion by Judge SCHROEDER
Dissent by Judge RAWLINSON
*

The Honorable Robert S. Lasnik, United States District
Judge for the Western District of Washington, sitting by
designation.

2a

SUMMARY**
Communications Decency Act
The panel filed (1) an order withdrawing its
opinion and replacing the opinion with an amended
opinion, denying a petition for panel rehearing, and
denying on behalf of the court a petition for
rehearing en banc; and (2) an amended opinion
reversing the district court’s dismissal, as barred by
§ 230 of the Communications Decency Act, of claims
under New York law and the Lanham Act’s false
advertising provision.
Enigma Software Group USA, LLC, and
Malwarebytes, Inc., were providers of software that
helped internet users to filter unwanted content from
their computers. Enigma alleged that Malwarebytes
configured its software to block users from accessing
Enigma’s software in order to divert Enigma’s
customers.
Section 230, the so-called “Good Samaritan”
provision of the Communications Decency Act,
immunizes software providers from liability for
actions taken to help users block certain types of
unwanted online material, including material that is
of a violent or sexual nature or is “otherwise
objectionable.” Distinguishing Zango, Inc. v.
Kaspersky Lab, Inc., 568 F.3d 1169 (9th Cir. 2009),

**

This summary constitutes no part of the opinion of the
court. It has been prepared by court staff for the convenience of
the reader.

3a
the panel held that the phrase “otherwise
objectionable” does not include software that the
provider finds objectionable for anticompetitive
reasons. As to the state-law claims, the panel held
that Enigma’s allegations of anticompetitive animus
were sufficient to withstand dismissal. As to the
federal claim, the panel further held that § 230’s
exception for intellectual property claims did not
apply because this false advertising claim did not
relate to trademarks or any other type of intellectual
property. The panel remanded the case for further
proceedings.
Dissenting, Judge Rawlinson wrote that § 230 is
broadly worded, and Enigma did not persuasively
make a case for limitation of the statute beyond its
provisions.
COUNSEL
Terry Budd (argued), Budd Law PLLC, Wexford,
Pennsylvania; Christopher M. Verdini and Anna
Shabalov,
K&L
Gates
LLP,
Pittsburgh,
Pennsylvania; Edward P. Sangster, K&L Gates LLP,
San Francisco, California; for Plaintiff-Appellant.
Tyler G. Newby (argued), Guinevere L. Jobson, and
Sapna Mehta, Fenwick & West LLP, San Francisco,
California; Benjamin A. Field, Neal Kumar Katyal,
and Reedy Swanson, Hogan Lovells US LLP,
Washington, D.C; for Defendant-Appellee.
Sophia Cope and Aaron Mackey, Electronic Frontier
Foundation, San Francisco, California, for Amici
Curiae Electronic Frontier Foundation and CAUCE
North America.

4a
Venkat Balasubramani, Focal PLLC, Seattle,
Washington; Eric Goldman, Professor; Jess Miers,
Law Student; Santa Clara University School of Law,
Santa Clara, California; for Amici Curiae
Cybersecurity Law Professors.
Anna-Rose Mathieson and Charles Kagay, California
Appellate Law Group LLP, San Francisco,
California, for Amicus Curiae ESET, LLC.
Brian M. Willen, Wilson Sonsini Goodrich & Rosati,
New York, New York; Lauren Gallo White, Wilson
Sonsini Goodrich & Rosati, San Francisco,
California; for Amicus Curiae Internet Association.
ORDER
The opinion filed September 12, 2019 (Docket
Entry No. 42), and appearing at 938 F.3d 1026, is
withdrawn and replaced by an amended opinion
concurrently filed with this order.
With these amendments, Judge Rawlinson voted to
grant the petition for panel rehearing. Judges
Schroeder and Lasnik voted to deny the petition for
panel rehearing. Judge Rawlinson voted to grant the
petition for rehearing en banc. Judges Schroeder and
Lasnik recommended denying the petition for
rehearing en banc.
The full court has been advised of the petition for
rehearing en banc and no judge has requested a vote
on whether to rehear the matter en banc. Fed. R.
App. P. 35.
The petition for rehearing and petition for
rehearing en banc are DENIED. No further petitions

5a
for rehearing
entertained.

or

rehearing

en

banc

will

be

OPINION
SCHROEDER, Circuit Judge:
OVERVIEW
This dispute concerns § 230, the so-called “Good
Samaritan” provision of the Communications
Decency Act of 1996, enacted primarily to protect
minors from harmful online viewing. The provision
immunizes computer-software providers from
liability for actions taken to help users block certain
types of unwanted, online material. The provision
expressly describes material of a violent or sexual
nature, but also includes a catchall for material that
is “otherwise objectionable.” 47 U.S.C. § 230(c)(2). We
have previously recognized that the provision
establishes a subjective standard whereby internet
users and software providers decide what online
material is objectionable. See Zango Inc. v. Kaspersky
Lab, Inc., 568 F.3d 1169, 1173 (9th Cir. 2009).
The parties to this dispute are both providers of
software that help internet users filter unwanted
content from their computers. Plaintiff-Appellant
Enigma Software Group USA, LLC has alleged
violations of New York state law and a violation of
the Lanham Act’s false advertising provision. Each
claim is based on the allegation that defendant,
Malwarebytes Inc., has configured its software to
block users from accessing Enigma’s software in
order to divert Enigma’s customers. The district
court, relying on Zango, dismissed the action as

6a
barred by § 230’s broad recognition of immunity. We
did not hold in Zango, however, that the immunity
was limitless.
This case differs from Zango in that here the
parties are competitors. In this appeal Enigma
contends that the “otherwise objectionable” catchall
is not broad enough to encompass a provider’s
objection to a rival’s software in order to suppress
competition. Enigma points to Judge Fisher’s
concurrence in Zango warning against an overly
expansive interpretation of the provision that could
lead to anticompetitive results. We heed that
warning and reverse the district court’s decision that
read Zango to require such an interpretation. We
hold that the phrase “otherwise objectionable” does
not include software that the provider finds
objectionable for anticompetitive reasons.
Malwarebytes contends that it had legitimate
reasons for finding Enigma’s software objectionable
apart from any anticompetitive effect, and that
immunity should therefore apply on Enigma’s statelaw claims, even if the district court erred in its
interpretation of Zango. We conclude, however, that
Enigma’s allegations of anticompetitive animus are
sufficient to withstand dismissal.
Enigma’s federal claim warrants an additional
analytical step. The CDA’s immunity provision
contains an exception for intellectual property
claims, stating that “[n]othing in this section shall be
construed to limit or expand any law pertaining to
intellectual property.” 47 U.S.C. § 230(e)(2). Enigma
has brought a false advertising claim under the
Lanham Act, a federal statute that deals with

7a
trademarks. Enigma contends that the false
advertising claim is one “pertaining to intellectual
property” and thus outside the scope of § 230
immunity.
Although it is true that the Lanham Act itself deals
with intellectual property, i.e. trademarks, Enigma’s
false advertising claim does not relate to trademarks
or any other type of intellectual property. The
district court therefore correctly held that the
intellectual property exception to immunity does not
apply to the false advertising claim. The district
court went on to hold that under Zango’s application
of § 230 immunity, Malwarebytes was immune from
liability for false advertising. As with Enigma’s state
law claims, we hold that the district court read
Zango too broadly in dismissing the federal claim.
We therefore reverse the judgment on this claim as
well.
STATUTORY BACKGROUND
This appeal centers on the immunity provision
contained in § 230(c)(2) of the Communications
Decency Act (“CDA”), 47 U.S.C. § 230(c)(1996). The
CDA, which was enacted as part of the
Telecommunications Act of 1996, contains this “Good
Samaritan” provision that, in subparagraph B,
immunizes internet-service providers from liability
for giving internet users the technical means to
restrict access to the types of material described in
the subparagraph A. Id. § 230(c)(2)(B). The material,
as described in that subparagraph, is “material that
the provider or user considers to be obscene, lewd,

8a
lascivious, filthy, excessively violent, harassing, or
otherwise objectionable.” Id. § 230(c)(2)(A).1
This grant of immunity dates back to the early
days of the internet when concerns first arose about
children being able to access online pornography.
Parents could not program their computers to block
online pornography, and this was at least partially
due to a combination of trial court decisions in New
York that had deterred the creation of onlinefiltration efforts. In the first case, Cubby, Inc. v.
CompuServe, Inc., a federal court held that passive
providers of online services and content were not
charged with knowledge of, or responsibility for, the
content on their network. See 776 F. Supp. 135, 139–
43 (S.D.N.Y. 1991). Therefore, if a provider remained
passive and uninvolved in filtering third-party
material from its network, the provider could not be

1

Section 230(c) is entitled “Protection for ‘Good Samaritan’
blocking and screening of offensive material.” The relevant
subsection (2), “Civil liability,” states, in full, as follows:
“No provider or user of an interactive computer service
shall be held liable on account of –
(A) any action voluntarily taken in good faith to restrict
access to or availability of material that the provider or
user considers to be obscene, lewd, lascivious, filthy,
excessively
violent,
harassing,
or
otherwise
objectionable, whether or not such material is
constitutionally protected; or
(B) any action taken to enable or make available to
information content providers or others the technical
means to restrict access to material described in
paragraph [A].”
47 U.S.C. § 230(c)(2)(A), (B).

9a
held liable for any offensive content it carried from
third parties. See id.
The corollary of this rule, as later articulated by a
New York state trial court, was that once a service
provider undertook to filter offensive content from its
network, it assumed responsibility for any offensive
content it failed to filter, even if it lacked knowledge
of the content. See Stratton Oakmont, Inc. v. Prodigy
Services Co., 1995 WL 323710, *5 (N.Y. Sup. Ct. May
24, 1995) (“Prodigy’s conscious choice, to gain the
benefits of editorial control, has opened it up to a
greater liability than CompuServe and other
computer networks that make no such choice.”),
superseded by statute, Communications Decency Act,
Pub. L. No. 104-104, 110 Stat. 137, as recognized in
Shiamili v. Real Estate Group of N.Y., Inc., 952
N.E.2d 1011 (2011). Representative Chris Cox
warned during debates on proposed legislation aimed
at overruling Stratton Oakmont, that premising
liability on providers’ efforts to filter out offensive
material was deterring software companies from
providing the filtering software and tools that could
help parents block pornography and other offensive
material from their home computers. See 141 Cong.
Rec. 22,045 (1995) (statement of Rep. Cox).
The Stratton Oakmont decision, along with the
increasing public concern about pornography on the
internet, served as catalysts for legislators to
consider greater internet regulation. Congress
considered, in early 1995, two different amendments
to the Telecommunications Act. The first, called the
Exon-Coats amendment, targeted pornography at
the source by prohibiting its dissemination. See id. at
16,068. Proponents of this bill argued that parents

10a
lacked the technological sophistication needed to
implement online-filtration tools and that the
government therefore needed to step in. Id. at
16,099. The second proposal, entitled the Online
Family Empowerment Act (“OFEA”), targeted
internet pornography at the receiving end by
encouraging further development of filtration tools.
Id. at 22,044. Proponents of this bill pointed out that
prohibiting pornography at the source raised
constitutional issues involving prior restraint, and
argued that parents, not government bureaucrats,
were better positioned to protect their children from
offensive online material. Id. at 16,013.
On February 1, 1996, Congress enacted both
approaches as part of the CDA. The Exon-Coats
amendment was codified at 47 U.S.C. § 223, but was
later invalidated by Reno v. ACLU, 521 U.S. 844,
877–79 (1997). Before us is OFEA’s approach,
enacted as § 230(c)(2) of the CDA. See Pub L. No.
104-104, § 509, 110 Stat. 56, 137–39. By immunizing
internet-service providers from liability for any
action taken to block, or help users block offensive
and objectionable online content, Congress overruled
Stratton Oakmont and thereby encouraged the
development of more sophisticated methods of online
filtration. See H.R. Conf. Rep. No. 104879, at 194
(1996).
The history of § 230(c)(2) shows that access to
pornography was Congress’s motivating concern, but
the language used in § 230 included much more,
covering any online material considered to be
“excessively violent, harassing, or otherwise
objectionable.” See 47 U.S.C. § 230(c)(2)(A)–(B).
Perhaps to guide the interpretation of this broad

11a
language, Congress took the rather unusual step of
setting forth policy goals in the immediately
preceding paragraph of the statute. See id. § 230(b).
Of the five goals, three are particularly relevant
here. These goals were “to encourage the
development of technologies which maximize user
control”; “to empower parents to restrict their
children’s access to objectionable or inappropriate
online content”; and “to preserve the vibrant and
competitive free market that presently exists for the
Internet and other interactive computer services.”
See id. § 230(b)(2)–(4).
This court has decided one prior case where we
considered the scope of § 230, but were principally
concerned with which types of online-service
providers Congress intended to immunize. See
Zango, 568 F.3d at 1175. We acknowledged that
providers of computer security software can benefit
from § 230 immunity, and that such providers have
discretion to identify what online content is
considered “objectionable,” id., but we had no reason
to discuss the scope of that discretion. The separate
concurrence in Zango focused on the future need for
considering appropriate limitations on provider
control. See id. at 1178–80 (Fisher, J. concurring).
District courts have differed in their interpretations
of Zango and the discretion granted to providers.
What is clear to us from the statutory language,
history, and case law is that providers do not have
unfettered discretion to declare online content
“objectionable” and blocking and filtering decisions
that are driven by anticompetitive animus are not
entitled to immunity under section 230(c)(2).

12a
FACTUAL BACKGROUND
Plaintiff-appellant Enigma Software Group USA,
LLC, is a Florida company that sells computer
security software nationwide. Malwarebytes Inc., a
Delaware corporation headquartered in California,
also sells computer security software nationwide.
Malwarebytes and Enigma are therefore direct
competitors.
Providers of computer security software help users
identify and block malicious or threatening software,
termed malware, from their computers. Each
provider generates its own criteria to determine
what software might threaten users. Defendant
Malwarebytes programs its software to search for
what it calls Potentially Unwanted Programs
(“PUPs”). PUPs include, for example, what
Malwarebytes describes as software that contains
“obtrusive, misleading, or deceptive advertisements,
branding or search practices.” Once Malwarebytes’s
security software is purchased and installed on a
user’s computer, it scans for PUPs, and according to
Enigma’s complaint, if the user tries to download a
program that Malwarebytes has determined to be a
PUP, a pop-up alert warns the user of a security risk
and advises the user to stop the download and block
the potentially threatening content.
Malwarebytes and Enigma have been direct
competitors since 2008, the year of Malwarebytes’s
inception. In their first eight years as competitors,
neither Enigma nor Malwarebytes flagged the
other’s software as threatening or unwanted. In late
2016, however, Malwarebytes revised its PUPdetection criteria to include any program that,

13a
according to Malwarebytes, users did not seem to
like.
After the revision, Malwarebytes’s software
immediately began flagging Enigma’s most popular
programs — RegHunter and SpyHunter — as PUPs.
Thereafter, anytime a user with Malwarebytes’s
software tried to download those Enigma programs,
the user was alerted of a security risk and, according
to Enigma’s complaint, the download was prohibited,
i.e. Malwarebytes “quarantined” the programs.
Enigma alleges that Malwarebytes’s new definition
of a PUP includes subjective criteria that
Malwarebytes has “implemented at its own malicious
whim” in order to identify Enigma’s programs as
threats. Enigma characterizes the revision as a
“guise” for anticompetitive conduct, and alleges that
its programs are “legitimate”, “highly regarded”, and
“pose no security threat.” As a result of
Malwarebytes’s actions, Enigma claims that it has
lost customers and revenue and experienced harm to
its reputation.
Enigma brought this action against Malwarebytes
in early 2017, in the Southern District of New York.
Enigma claimed that Malwarebytes has used its
PUP-modification process to advance a “bad faith
campaign of unfair competition” aimed at “deceiving
consumers and interfering with [Enigma’s] customer
relationships.”
Enigma’s complaint alleged four claims, three
under New York state law and one under federal
law. The first state-law claim accused Malwarebytes
of using deceptive business practices in violation of
New York General Business Law § 349. Enigma’s

14a
second and third state-law claims alleged tortious
interference with business and contractual relations
in violation of New York state common law. The
federal claim accused Malwarebytes of making false
and misleading statements to deceive consumers into
choosing Malwarebytes’s security software over
Enigma’s, in violation of the Lanham Act, 15 U.S.C.
§ 1125(a)(1)(B).
Malwarebytes sought a change of venue. Although
Enigma maintained that venue was proper in New
York because Malwarebytes’s conduct affected users
and computers within that state, the conduct at issue
had national reach. The district court therefore
granted Malwarebytes’s motion to transfer the case
to the Northern District of California, where
Malwarebytes is headquartered.
Malwarebytes then moved to dismiss for failure to
state a claim, arguing that it was immune from
liability under § 230(c)(2) of the CDA. The district
court granted the motion, finding that under the
reasoning of our decision in Zango, Malwarebytes
was immune under § 230 on all of Enigma’s claims.
The district court interpreted Zango to mean that
anti-malware software providers are free to block
users from accessing any material that those
providers, in their discretion, deem to be
objectionable. Given Malwarebytes’s status as a
provider of filtering software, and its assertion that
Enigma’s programs are potentially unwanted, the
district court held that Malwarebytes could not be
liable under state law for blocking users’ access to
Enigma’s programs.

15a
With respect to the federal claim, the district court
had to consider the intellectual property exception to
the CDA’s immunity provision set forth in 47 U.S.C.
§ 230(e)(2). The somewhat opaque exception states
that § 230 immunity “shall not be construed to limit
or expand any law pertaining to intellectual
property.” Id. Enigma’s federal claim alleged false
advertising under the Lanham Act, and Enigma
contended that immunity did not apply because that
statute deals with intellectual property, i.e.
trademarks. The district court reasoned, however,
that although the Lanham Act itself deals with
intellectual property, Enigma’s false advertising
claim did not relate to any type of intellectual
property and therefore § 230 immunity encompassed
that claim as well. Having concluded that
Malwarebytes was immune on all four claims, the
district court dismissed the complaint and granted
judgment for Malwarebytes.
On appeal, Enigma primarily contends that the
district court erred in interpreting our Zango opinion
to give online service providers unlimited discretion
to block online content, and that the Good Samaritan
blocking provision does not provide such sweeping
immunity that it encompasses anticompetitive
conduct.
DISCUSSION
I. Scope of § 230(c)(2) Immunity as Applied to
State-Law Claims
The district court held that our opinion in Zango
controlled, and interpreted Zango to mean that an
online-service provider cannot be liable for blocking
internet users from accessing online content that the

16a
provider considers objectionable, regardless of the
provider’s motivations or the harmful effects of the
blocking. The scope of the statutory catchall phrase,
“otherwise objectionable,” was not at issue in Zango,
however. The central issue in Zango was whether §
230 immunity applies to filtering software providers
like the defendant Kaspersky in that case, and both
parties in this case. See 568 F.3d at 1173, 1176. We
held such providers had immunity. Id. at 1177–78.
At the end of our majority opinion, we emphasized
the relevant statutory language in stating that § 230
permits providers to block material “that either the
provider or the user considers . . . objectionable.” See
id. at 1177 (original emphasis). The district court
focused on that sentence and reasoned that
Malwarebytes had unfettered discretion to select
what criteria makes a program “objectionable” under
§ 230, and further, that the court was not to analyze
Malwarebytes’s reasons for doing so.
The majority in Zango did not, however, address
whether there were limitations on a provider’s
discretion to declare online content “objectionable.”
No such issue was raised in the appeal. We noted
that Zango “waived” the argument that its software
was not “objectionable.” See id. at 1176–77. We
therefore held that § 230 immunity covered
Kaspersky’s decision to block users from accessing
the type of content at issue in that case and
concluded that § 230 permits providers to block
material that “the provider considers . . .
objectionable.” Id. at 1177.
It was Judge Fisher’s concurring opinion in Zango
that framed the issue for future litigation as to
whether the term “objectionable” might be construed

17a
in a way that would immunize providers even if they
blocked online content for improper reasons. See id.
at 1178–80 (Fisher, J. concurring). Judge Fisher
warned that extending immunity beyond the facts of
that case could “pose serious problems,” particularly
where a provider is charged with using § 230
immunity to advance an anticompetitive agenda. See
id. at 1178. He said that an “unbounded” reading of
the phrase “otherwise objectionable” would allow a
content provider to “block content for anticompetitive
purposes or merely at its malicious whim.” Id.
District courts nationwide have grappled with the
issues discussed in Zango’s majority and concurring
opinions, and have reached differing results. Like the
district court in this case, at least two other federal
district courts have relied on Zango to dismiss
software-provider lawsuits against Malwarebytes
where the plaintiff claimed that Malwarebytes
improperly characterized the plaintiff’s software as a
PUP. See PC Drivers Headquarters, LP v.
Malwarebytes Inc., 371 F. Supp. 3d 652 (N.D. Cal.
2019); PC Drivers Headquarters, LP v. Malwarebytes,
Inc., No. 1:18-CV-234-RP, 2018 WL 2996897, at *1
(W.D. Tex. Apr. 23, 2018).
Other district courts have viewed our holding in
Zango to be less expansive. See Song fi Inc. v. Google,
Inc., 108 F. Supp. 3d 876, 884 (N.D. Cal. 2015)
(noting that just because “the statute requires the
user or service provider to subjectively believe the
blocked or screened material is objectionable does
not mean anything or everything YouTube finds
subjectively objectionable is within the scope of
Section 230(c),” and concluding that, “[o]n the
contrary such an ‘unbounded’ reading . . . would

18a
enable content providers to ‘block content for
anticompetitive reasons[.]’”) (quoting Judge Fisher’s
concurrence in Zango); Sherman v. Yahoo! Inc., 997
F. Supp. 2d 1129, 1138 (S.D. Cal. 2014) (same); see
also Holomaxx Techs. v. Microsoft Corp., 783 F.
Supp. 2d 1097, 1104 (N.D. Cal. Mar. 11, 2011)
(acknowledging that a provider’s subjective
determination of what constitutes objectionable
material under § 230(c)(2) is not limitless, but
finding that the harassing emails in that case were
reasonably objectionable).
We find these decisions recognizing limitations in
the scope of immunity to be persuasive. The courts
interpreting Zango as providing unlimited immunity
seem to us to have stretched our opinion in Zango too
far. This is because the focus of that appeal was
neither what type of material may be blocked, nor
why it may be blocked, but rather who benefits from
§ 230 immunity. The issue was whether § 230
immunity applies to filtering-software providers. See
Zango, 568 F.3d at 1173. We answered that question
in the affirmative, explaining that Kaspersky was
the type of “interactive computer service” to which §
230(c)(2) expressly referred, and that Kaspersky was
engaged in the type of conduct to which § 230(c)(2)
generally applies. Id. at 1175–76.
As relevant here, the majority opinion in Zango
establishes only that Malwarebytes, as a filteringsoftware provider, is an entity to which the
immunity afforded by § 230 would apply. The
majority opinion does not require us to hold that we
lack the authority to question Malwarebytes’s
determinations of what content to block. We must
therefore in this case analyze § 230 to decide what

19a
limitations, if any, there are on the ability of a
filtering software provider to block users from
receiving online programming.
The legal question before us is whether § 230(c)(2)
immunizes blocking and filtering decisions that are
driven by anticompetitive animus. The majority in
Zango had no occasion to address the issue, and the
parties in that case were not competitors. See 568 F.
3d at 1170 (explaining Kaspersky is a security
software provider; Zango provides an online service
for users to stream movies, video games, and music).
This is the first § 230 case we are aware of that
involves direct competitors.
In this appeal, Enigma alleges that Malwarebytes
blocked Enigma’s programs for anticompetitive
reasons, not because the programs’ content was
objectionable within the meaning of § 230, and that
§ 230 does not provide immunity for anticompetitive
conduct. Malwarebytes’s position is that, given the
catchall, Malwarebytes has immunity regardless of
any anticompetitive motives.
We cannot accept Malwarebytes’s position, as it
appears contrary to CDA’s history and purpose.
Congress expressly provided that the CDA aims “to
preserve the vibrant and competitive free market
that presently exists for the Internet and other
interactive computer services” and to “remove
disincentives for the development and utilization of
blocking and filtering technologies.” § 230(b)(2)–(3).
Congress said it gave providers discretion to identify
objectionable content in large part to protect
competition, not suppress it. Id. In other words,
Congress wanted to encourage the development of

20a
filtration technologies, not to enable software
developers to drive each other out of business.
In the infancy of the internet, the unwillingness of
Congress to spell out the meaning of “otherwise
objectionable” was understandable. The broad grant
of protective control over online content may have
been more readily acceptable in an era before the
potential magnitude of internet communication was
fully comprehended. Indeed, the fears of harmful
content at the time led Congress to enact, in the
same statute, an outright ban on the dissemination
of online pornography, a ban which the Supreme
Court swiftly rejected as unconstitutional a year
later. See Reno v. ACLU, 521 U.S. at 877–79
(striking down 47 U.S.C. § 223).
We must today recognize that interpreting the
statute to give providers unbridled discretion to
block online content would, as Judge Fisher warned,
enable and potentially motivate internet-service
providers to act for their own, and not the public,
benefit. See 568 F.3d at 1178 (Fisher, J., concurring).
Immunity for filtering practices aimed at
suppressing competition, rather than protecting
internet users, would lessen user control over what
information they receive, contrary to Congress’s
stated policy. See § 230(b)(3) (to maximize user
control over what content they view). Indeed, users
selecting a security software provider must trust
that the provider will block material consistent with
that user’s desires. Users would not reasonably
anticipate providers blocking valuable online content
in order to stifle competition. Immunizing
anticompetitive blocking would, therefore, be
contrary to another of the statute’s express policies:

21a
“removing disincentives for the utilization of blocking
and filtering technologies.” Id. § 230(b)(4).
We therefore reject Malwarebytes’s position that
§ 230 immunity applies regardless of anticompetitive
purpose. But we cannot, as Enigma asks us to do,
ignore the breadth of the term “objectionable” by
construing it to cover only material that is sexual or
violent in nature. Enigma would have us read the
general, catchall phrase “otherwise objectionable” as
limited to the categories of online material described
in the seven specific categories that precede it. See 47
U.S.C. § 230(c)(2) (describing material that is
“obscene, lewd, lascivious, filthy, excessively violent,
harassing or otherwise objectionable.”). Enigma
argues that its software has no such content, and
that Malwarebytes therefore cannot claim immunity
for blocking it.
Enigma relies on the principle of ejusdem generis,
which teaches that when a generic term follows
specific terms, the generic term should be construed
to reference subjects akin to those with the specific
enumeration. See, e.g., Norfolk & W. Ry. Co. v. Am.
Train Dispatchers Ass’n, 499 U.S. 117, 129 (1991).
But the specific categories listed in § 230(c)(2) vary
greatly: Material that is lewd or lascivious is not
necessarily similar to material that is violent, or
material that is harassing. If the enumerated
categories are not similar, they provide little or no
assistance in interpreting the more general category.
We have previously recognized this concept. See
Sacramento Reg’l Cty. Sanitation Dist. v. Reilly, 905
F.2d 1262, 1270 (9th Cir. 1990) (“Where the list of
objects that precedes the ‘or other’ phrase is
dissimilar, ejusdem generis does not apply”).

22a
We think that the catchall was more likely
intended to encapsulate forms of unwanted online
content that Congress could not identify in the
1990s. But even if ejusdem generis did apply, it
would not support Enigma’s narrow interpretation of
“otherwise objectionable.” Congress wanted to give
internet users tools to avoid not only violent or
sexually explicit materials, but also harassing
materials. Spam, malware and adware could fairly
be placed close enough to harassing materials to at
least be called “otherwise objectionable” while still
being faithful to the principle of ejusdem generis.
Several district courts have, for example, regarded
unsolicited marketing emails as “objectionable.” See,
e.g., Holomaxx, 783 F. Supp. 2d at 1104; e360Insight,
LLC v. Comcast Corp., 546 F. Supp. 2d 605, 608–610
(N.D. Ill. 2008); see also Smith v. Trusted Universal
Standards In Elec. Transactions, Inc., No. CIV094567-RBK-KMW, 2010 WL 1799456, at *6 (D.N.J.
May 4, 2010). But we do not, in this appeal,
determine the precise relationship between the term
“otherwise objectionable” and the seven categories
that precede it. We conclude only that if a provider’s
basis for objecting to and seeking to block materials
is because those materials benefit a competitor, the
objection would not fall within any category listed in
the statute and the immunity would not apply.
Malwarebytes’s fallback position is that, even if it
would lack immunity for anticompetitive blocking,
Malwarebytes has found Enigma’s programs
“objectionable” for legitimate reasons based on the
programs’ content. Malwarebytes asserts that
Enigma’s programs, SpyHunter and RegHunter, use
“deceptive tactics” to scare users into believing that
they have to download Enigma’s programs to prevent

23a
their computers from being infected. Enigma alleges,
however, that its programs “pose no security threat”
and that Malwarebytes’s justification for blocking
these “legitimate” and “highly regarded” programs
was a guise for anticompetitive animus.
The district court interpreted our holding in Zango
to foreclose this debate entirely, implicitly reasoning
that if Malwarebytes has sole discretion to select
what programs are “objectionable,” the court need
not evaluate the reasons for the designation. Because
we hold that § 230 does not provide immunity for
blocking a competitor’s program for anticompetitive
reasons, and because Enigma has specifically alleged
that the blocking here was anticompetitive, Enigma’s
claims survive the motion to dismiss. We therefore
reverse the dismissal of Enigma’s state-law claims
and we remand for further proceedings.
II. The Federal Claim and the
Intellectual Property Exception

CDA’s

Enigma’s fourth claim is a claim for false
advertising under the Lanham Act, a statute dealing
with a form of intellectual property, i.e. trademarks.
Enigma alleges that Malwarebytes publicly
mischaracterized Enigma’s programs SpyHunter and
RegHunter as potentially unwanted or PUPs, and it
did so in order to interfere with Enigma’s customer
base and divert those customers to Malwarebytes.
Section 230(e)(2) of the CDA contains an exception
to immunity for intellectual property claims. See 47
U.S.C. § 230(e)(2). This exception, known as the
intellectual property carve out, states that § 230
immunity shall not “limit or expand any law
pertaining to intellectual property.” Id. In light of

24a
that exception, Enigma contends that immunity
would not bar Enigma’s Lanham Act claim, even if
immunity is available to Malwarebytes on the state
law claims. Although Enigma’s claim does not itself
involve an intellectual property right, Enigma
characterizes its federal false advertising claim as
one “pertaining to intellectual property” within the
meaning of § 230(e)(2) because the Lanham Act deals
with intellectual property. The district court rejected
this argument, and rightly so.
This is because even though the Lanham Act is
known as the federal trademark statute, not all
claims brought under the statute involve
trademarks. The Act contains two parts, one
governing trademark infringement and another
governing false designations of origin, false
descriptions, and dilution. Compare 15 U.S.C. § 1114
(trademark infringement) with id. § 1125 (the rest).
The latter, § 1125, creates two bases of liability, false
association
and
false
advertising.
Compare
§ 1125(a)(1)(A)
(false
association)
with
§ 1125(a)(1)(B) (false advertising). Thus, although
“much of the Lanham Act addresses the registration,
use, and infringement of trademarks and related
marks, . . . § 1125(a) is one of the few provisions that
goes beyond trademark protection.” Dastar Corp. v.
Twentieth Cent. Fox Film Corp., 539 U.S. 23, 28–29
(2003).
In this appeal, we must decide whether the
exception to immunity contained in § 230(e)(2)
applies to false advertising claims brought under the
Lanham Act. Our court has not addressed the issue,
although we have considered the exception as it
would apply to state law claims. See Perfect 10 v.

25a
CCBill, LLC, 488 F.3d 1102, 1118–19 (9th Cir. 2009)
(concluding that the intellectual property exception
in § 230(e)(2) was not intended to cover intellectual
property claims brought under state law); see also
Gen. Steel Domestic Sales, L.L.C. v. Chumley, 840
F.3d 1178, 1182 (10th Cir. 2016) (declining to
analyze the intellectual property exception;
explaining that because “§ 230 does not contain the
grant of immunity from suit contended for, it is
unnecessary to discuss its applicability to the
Lanham Act false advertising claims”).
We have observed before that because Congress did
not define the term “intellectual property law,” it
should be construed narrowly to advance the CDA’s
express policy of providing broad immunity. See
Perfect 10, 488 F.3d at 1119. One of these express
policy reasons for providing immunity was, as
Congress stated in § 230(b)(2), “to preserve the
vibrant and competitive free market that presently
exists for the Internet and other interactive
computer services, unfettered by Federal or State
regulation.” 47 U.S.C. § 230(b)(2). The intellectual
property exception is a limitation on immunity, and
the CDA’s stated congressional purpose counsels
against an expansive interpretation of the exception
that would diminish the scope of immunity. If the
intellectual property law exception were to
encompass any claim raised under the Lanham Act—
including false advertising claims that do not directly
involve intellectual property rights—it would create
a potential for new liability that would upset, rather
than “preserve” the vibrant culture of innovation on
the internet that Congress envisioned. Id.

26a
We therefore hold that the intellectual property
exception contained in § 230(e)(2) encompasses
claims pertaining to an established intellectual
property right under federal law, like those inherent
in a patent, copyright, or trademark. The exception
does not apply to false advertising claims brought
under § 1125(a) of the Lanham Act, unless the claim
itself involves intellectual property.
Here, Enigma’s Lanham Act claim derives from the
statute’s false advertising provision. Enigma alleges
that Malwarebytes mischaracterized Enigma’s most
popular software programs in order to divert
Enigma’s customers to Malwarebytes. These
allegations do not relate to or involve trademark
rights or any other intellectual property rights. Thus,
Enigma’s false advertising claim is not a claim
“pertaining to intellectual property law” within the
meaning of § 230(e)(2). The district court correctly
concluded that the intellectual property exception to
immunity does not encompass Enigma’s Lanham Act
claim.
The district court went on to hold, however, as it
did with the state law claims, that Malwarebytes is
nevertheless immune from liability under our
decision in Zango. As we have explained with respect
to the state law claims, Zango did not define an
unlimited scope of immunity under § 230, and
immunity under that section does not extend to
anticompetitive conduct. Because the federal claim,
like the state claims, is based on allegations of such
conduct, the federal claim survives dismissal. We
therefore reverse the district court’s judgment in
favor of Malwarebytes and remand for further
proceedings on this claim as well.

27a
CONCLUSION
The judgment of the district court is reversed and
the case is remanded for further proceedings
consistent with this opinion.
REVERSED and REMANDED.

28a
RAWLINSON, Circuit Judge, dissenting:
In his concurring opinion in Zango, Inc. v.
Kaspersky Lab, Inc., 568 F.3d 1169, 1179–80 (9th
Cir. 2009), Judge Fisher acknowledged that “until
Congress clarifies the statute or a future litigant
makes the case for a possible limitation,” the
“broadly worded” Communications Decency Act (the
Act) afforded immunity to a distributor of Internet
security software. Congress has not further clarified
the statute and Enigma Software has not
persuasively made a case for limitation of the statute
beyond its provisions.
The majority opinion seeks to limit the statute
based on the fact that the parties are competitors.
See Majority Opinion, p. 6. However, nothing in the
statutory provisions or our majority opinion in Zango
supports such a distinction. Rather the “broad
language” of the Act specifically encompasses “any
action voluntarily taken [by a provider] to restrict
access to . . . material that the provider . . . considers
to be . . . otherwise objectionable.” 47 U.S.C.
§ 230(c)(2)(A) (emphasis added). Under the language
of the Act, so long as the provider’s action is taken to
remove “otherwise objectionable” material, the
restriction of access is immunized. See id. The
majority’s real complaint is not that the district court
construed the statute too broadly, but that the
statute is written too broadly. However, that defect,
if it is a defect, is one beyond our authority to correct.
See Baker Botts LLP v. ASARCO LLC, 135 S. Ct.
2158, 2169 (2015).
In particular, the majority holds that the criteria
for blocking online material may not be based on the

29a
identity of the entity that produced it. See Majority
Opinion, p. 11. Unfortunately, however, that
conclusion cannot be squared with the broad
language of the Act. Under the language of the
statute, if the blocked content is “otherwise
objectionable” to the provider, the Act bestows
immunity. Zango, 568 F.3d at 1173 (“[T]he statute
plainly immunizes from suit a provider of interactive
computer services that makes available software
that filters or screens material that the user or the
provider deems objectionable.”) (emphasis in the
original); 1174 (“According protection to providers of
programs that filter adware and malware is also
consistent with the Congressional goals for immunity
articulated in [47 U.S.C.] § 230 itself.”). Although the
parties were not direct competitors, the plaintiff in
Zango asserted similar anti-competition effects. See
id. at 1171–72. The majority’s policy arguments are
in conflict with our recognition in Zango that the
broad language of the Act is consistent with “the
Congressional goals for immunity” as expressed in
the language of the statute. Id. at 1174. As the
district court cogently noted, we “must presume that
a legislature says in a statute what it means and
means in a statute what it says there.” Connecticut
Nat’l Bank v. Germain, 503 U.S. 249, 253–54 (1992)
(citations omitted).
I respectfully dissent.

30a
APPENDIX B
_________
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
_________
No. 17-17351
_________
ENIGMA SOFTWARE GROUP USA, LLC,
Plaintiff-Appellant,
v.
MALWAREBYTES, INC.,
Defendant-Appellee.
_________
Appeal from the United States District Court
for the Northern District of California
Edward J. Davila, District Judge, Presiding
Argued and Submitted February 15, 2019
San Francisco, California
Filed September 12, 2019
Before: Mary M. Schroeder and Johnnie B.
Rawlinson, Circuit Judges, and Robert S. Lasnik,*
District Judge.

*

The Honorable Robert S. Lasnik, United States District Judge
for the Western District of Washington, sitting by designation.

31a
Opinion by Judge Schroeder;
Dissent by Judge Rawlinson
_________
SUMMARY**

Communications Decency Act
The panel reversed the district court’s dismissal, as
barred by § 230 of the Communications Decency Act,
of claims under New York law and the Lanham Act’s
false advertising provision.
Enigma Software Group USA, LLC, and
Malwarebytes, Inc., were providers of software that
helped internet users to filter unwanted content from
their computers. Enigma alleged that Malwarebytes
configured its software to block users from accessing
Enigma’s software in order to divert Enigma’s
customers.
Section 230 immunizes software providers from
liability for actions taken to help users block certain
types of unwanted online material, including
material that is of a violent or sexual nature or is
“otherwise objectionable.” Distinguishing Zango, Inc.
v. Kaspersky Lab, Inc., 568 F.3d 1169 (9th Cir. 2009),
the panel held that the phrase “otherwise
objectionable” does not include software that the
provider finds objectionable for anticompetitive
**

This summary constitutes no part of the opinion of the
court. It has been prepared by court staff for the convenience of
the reader.

32a
reasons. As to the state-law claims, the panel held
that Enigma’s allegations of anticompetitive animus
were sufficient to withstand dismissal. As to the
federal claim, the panel further held that
§ 230’s exception for intellectual property claims did
not apply because this false advertising claim did not
relate to trademarks or any other type of intellectual
property. The panel remanded the case for further
proceedings.
Dissenting, Judge Rawlinson wrote that § 230 is
broadly worded, and Enigma did not persuasively
make a case for limitation of the statute beyond its
provisions.

COUNSEL
Terry Budd (argued), Budd Law PLLC, Wexford,
Pennsylvania; Christopher M. Verdini and Anna
Shabalov,
K&L
Gates
LLP,
Pittsburgh,
Pennsylvania; Edward P. Sangster, K&L Gates LLP,
San Francisco, California; for Plaintiff-Appellant.
Tyler G. Newby (argued), Guinevere L. Job son, and
Sapna Mehta, Fenwick & West LLP, San Francisco,
California, for Defendant-Appellee.

OPINION
SCHROEDER, Circuit Judge:
OVERVIEW
This dispute concerns § 230, the so-called “Good
Samaritan” provision of the Communications
Decency Act of 1996, enacted primarily to protect

33a
minors from harmful online viewing. The provision
immunizes computer-software providers from
liability for actions taken to help users block certain
types of unwanted, online material. The provision
expressly describes material of a violent or sexual
nature, but also includes a catchall for material that
is “otherwise objectionable.” 47 U.S.C. § 230(c)(2). We
have previously recognized that the provision
establishes a subjective standard whereby internet
users and software providers decide what online
material is objectionable. See Zango Inc. v. Kaspersky
Lab, Inc., 568 F.3d 1169, 1173 (9th Cir. 2009).
The parties to this dispute are both providers of
software that help internet users filter unwanted
content from their computers. Plaintiff-Appellant
Enigma Software Group USA, LLC has alleged
violations of New York state law and a violation of
the Lanham Act’s false advertising provision. Each
claim is based on the allegation that defendant,
Malwarebytes Inc., has configured its software to
block users from accessing Enigma’s software in
order to divert Enigma’s customers. The district
court, relying on Zango, dismissed the action as
barred by § 230’s broad recognition of immunity. We
did not hold in Zango, however, that the immunity
was limitless.
This case differs from Zango in that here the
parties are competitors. In this appeal Enigma
contends that the “otherwise objectionable” catchall
is not broad enough to encompass a provider’s
objection to a rival’s software in order to suppress
competition. Enigma points to Judge Fisher’s
concurrence in Zango warning against an overly
expansive interpretation of the provision that could

34a
lead to anticompetitive results. We heed that
warning and reverse the district court’s decision that
read Zango to require such an interpretation. We
hold
that
the
phrase
“otherwise
objectionable” does not include software that the
provider finds objectionable for anticompetitive
reasons.
Malwarebytes contends that it had legitimate
reasons for finding Enigma’s software objectionable
apart from any anticompetitive effect, and that
immunity should therefore apply on Enigma’s statelaw claims, even if the district court erred in its
interpretation of Zango. We conclude, however, that
Enigma’s allegations of anticompetitive animus are
sufficient to withstand dismissal.
Enigma’s federal claim warrants an additional
analytical step. The CDA’s immunity provision
contains an exception for intellectual property
claims, stating that “[n]othing in this section shall be
construed to limit or expand any law pertaining to
intellectual property.” 47 U.S.C. § 230(e)(2). Enigma
has brought a false advertising claim under the
Lanham Act, a federal statute that deals with
trademarks. Enigma contends that the false
advertising claim is one “pertaining to intellectual
property” and thus outside the scope of § 230
immunity.
Although it is true that the Lanham Act itself deals
with intellectual property, i.e. trademarks, Enigma’s
false advertising claim does not relate to trademarks
or any other type of intellectual property. The
district court therefore correctly held that the
intellectual property exception to immunity does not

35a
apply to the false advertising claim. The district
court went on to hold that under Zango’s application
of § 230 immunity, Malwarebytes was immune from
liability for false advertising. As with Enigma’s state
law claims, we hold that the district court read
Zango too broadly in dismissing the federal claim.
We therefore reverse the judgment on this claim as
well.
STATUTORY BACKGROUND
This appeal centers on the immunity provision
contained in § 230(c)(2) of the Communications
Decency Act (“CDA”), 47 U.S.C. § 230(c)(1996). The
CDA, which was enacted as part of the
Telecommunications Act of 1996, contains this “Good
Samaritan” provision that, in subparagraph B,
immunizes internet-service providers from liability
for giving internet users the technical means to
restrict access to the types of material described in
the subparagraph A. Id. § 230(c)(2)(B). The material,
as described in that subparagraph, is “material that
the provider or user considers to be obscene, lewd,
lascivious, filthy, excessively violent, harassing, or
otherwise objectionable.” Id. § 230(c)(2)(A).1

1

Section 230(c) is entitled “Protection for ‘Good Samaritan’
blocking and screening of offensive material.” The relevant
subsection (2), “Civil liability,” states, in full, as follows:
“No provider or user of an interactive computer service
shall be held liable on account of —
(A) any action voluntarily taken in good faith to restrict
access to or availability of material that the provider or
user considers to be obscene, lewd, lascivious, filthy,
excessively
violent,
harassing,
or
otherwise

36a
This grant of immunity dates back to the early
days of the internet when concerns first arose about
children being able to access online pornography.
Parents could not program their computers to block
online pornography, and this was at least partially
due to a combination of trial court decisions in New
York that had deterred the creation of onlinefiltration efforts. In the first case, Cubby, Inc. v.
CompuServe, Inc., a federal court held that passive
providers of online services and content were not
charged with knowledge of, or responsibility for, the
content on their network. See 776 F. Supp 135, 13943 (S.D.N.Y. 1991). Therefore, if a provider remained
passive and uninvolved in filtering third-party
material from its network, the provider could not be
held liable for any offensive content it carried from
third parties. See id.
The corollary of this rule, as later articulated by a
New York state trial court, was that once a service
provider undertook to filter offensive content from its
network, it assumed responsibility for any offensive
content it failed to filter, even if it lacked knowledge
of the content. See Stratton Oakmont, Inc. v. Prodigy
Services Co., 1995 WL 323710, *5 (N.Y. Sup. Ct. May
24, 1995) (“Prodigy’s conscious choice, to gain the
benefits of editorial control, has opened it up to a
objectionable, whether or
constitutionally protected; or

not

such

material

is

(B) any action taken to enable or make available to
information content providers or others the technical
means to restrict access to material described in
paragraph [A].”
47 U.S.C. § 230(c)(2)(A), (B).

37a
greater liability than CompuServe and other
computer networks that make no such choice.”),
superseded by statute, Communications Decency Act,
Pub. L. No. 104-104, 110 Stat. 137, as recognized in
Shiamili v. Real Estate Group of N.Y., Inc., 952
N.E.2d 1011 (2011). Representative Chris Cox
warned during debates on proposed legislation aimed
at overruling Stratton Oakmont, that premising
liability on providers’ efforts to filter out offensive
material was deterring software companies from
providing the filtering software and tools that could
help parents block pornography and other offensive
material from their home computers. See 141 Cong.
Rec. 22,045 (1995) (statement of Rep. Cox).
The Stratton Oakmont decision, along with the
increasing public concern about pornography on the
internet, served as catalysts for legislators to
consider greater internet regulation. Congress
considered, in early 1995, two different amendments
to the Telecommunications Act. The first, called the
Exon-Coats amendment, targeted pornography at
the source by prohibiting its dissemination. See id. at
16,068. Proponents of this bill argued that parents
lacked the technological sophistication needed to
implement online-filtration tools and that the
government therefore needed to step in. Id. at
16,099. The second proposal, entitled the Online
Family Empowerment Act (“OFEA”), targeted
internet pornography at the receiving end by
encouraging further development of filtration tools.
Id. at 22,044. Proponents of this bill pointed out that
prohibiting pornography at the source raised
constitutional issues involving prior restraint, and
argued that parents, not government bureaucrats,

38a
were better positioned to protect their children from
offensive online material. Id. at 16,013.
On February 1, 1996, Congress enacted both
approaches as part of the CDA. The Exon-Coats
amendment was codified at 47 U.S.C. § 223, but was
later invalidated by Reno v. ACLU, 521 U.S. 844,
877-79 (1997). Before us is OFEA’s approach,
enacted as § 230(c)(2) of the CDA. See Pub L. No.
104-104, § 509, 110 Stat. 56, 137-39. By immunizing
internet-service providers from liability for any
action taken to block, or help users block offensive
and objectionable online content, Congress overruled
Stratton Oakmont and thereby encouraged the
development of more sophisticated methods of online
filtration. See H.R. Conf. Rep. No. 104-879, at 194
(1996).
The history of § 230(c)(2) shows that access to
pornography was Congress’s motivating concern, but
the language used in § 230 included much more,
covering any online material considered to be
“excessively violent, harassing, or otherwise
objectionable.” See 47 U.S.C. § 230(c)(2)(A)—(B).
Perhaps to guide the interpretation of this broad
language, Congress took the rather unusual step of
setting forth policy goals in the immediately
preceding paragraph of the statute. See id. § 230(b).
Of the five goals, three are particularly relevant
here. These goals were “to encourage the
development of technologies which maximize user
control”; “to empower parents to restrict their
children’s access to objectionable or inappropriate
online content”; and “to preserve the vibrant and
competitive free market that presently exists for the

39a
Internet and other interactive computer services.”
See id. § 230(b)(2)—(4).
This court has decided one prior case where we
considered the scope of § 230, but were principally
concerned with which types of online-service
providers Congress intended to immunize. See
Zango, 568 F.3d at 1175. We acknowledged that
providers of computer security software can benefit
from § 230 immunity, and that such providers have
discretion to identify what online content is
considered “objectionable,” id., but we had no reason
to discuss the scope of that discretion. The separate
concurrence in Zango focused on the future need for
considering appropriate limitations on provider
control. See id. at 1178-80 (Fisher, J. concurring).
District courts have differed in their interpretations
of Zango and the extent to which it encouraged
providers to block material. What is clear to us from
the statutory language, history and case law is that
the criteria for blocking online material must be
based on the characteristics of the online material,
i.e. its content, and not on the identity of the entity
that produced it.
FACTUAL BACKGROUND
Plaintiff-appellant Enigma Software Group USA,
LLC, is a Florida company that sells computer
security software nationwide. Malwarebytes Inc., a
Delaware corporation headquartered in California,
also sells computer security software nationwide.
Malwarebytes and Enigma are therefore direct
competitors.
Providers of computer security software help users
identify and block malicious or threatening software,

40a
termed malware, from their computers. Each
provider generates its own criteria to determine
what software might threaten users. Defendant
Malwarebytes programs its software to search for
what it calls Potentially Unwanted Programs
(“PUPs”). PUPs include, for example, what
Malwarebytes describes as software that contains
“obtrusive, misleading, or deceptive advertisements,
branding or search practices.” Once Malwarebytes’s
security software is purchased and installed on a
user’s computer, it scans for PUPs, and according to
Enigma’s complaint, if the user tries to download a
program that Malwarebytes has determined to be a
PUP, a pop-up alert warns the user of a security risk
and advises the user to stop the download and block
the potentially threatening content.
Malwarebytes and Enigma have been direct
competitors since 2008, the year of Malwarebytes’s
inception. In their first eight years as competitors,
neither Enigma nor Malwarebytes flagged the
other’s software as threatening or unwanted. In late
2016, however, Malwarebytes revised its PUPdetection criteria to include any program that,
according to Malwarebytes, users did not seem to
like.
After the revision, Malwarebytes’s software
immediately began flagging Enigma’s most popular
programs—RegHunter and SpyHunter—as PUPs.
Thereafter, anytime a user with Malwarebytes’s
software tried to download those Enigma programs,
the user was alerted of a security risk and, according
to Enigma’s complaint, the download was prohibited,
i.e. Malwarebytes “quarantined” the programs.
Enigma alleges that Malwarebytes’s new definition

41a
of a PUP includes subjective criteria that
Malwarebytes has “implemented at its own malicious
whim” in order to identify Enigma’s programs as
threats. Enigma characterizes the revision as a
“guise” for anticompetitive conduct, and alleges that
its programs are “legitimate”, “highly regarded”, and
“pose no security threat.” As a result of
Malwarebytes’s actions, Enigma claims that it has
lost customers and revenue and experienced harm to
its reputation.
Enigma brought this action against Malwarebytes
in early 2017, in the Southern District of New York.
Enigma claimed that Malwarebytes has used its
PUP-modification process to advance a “bad faith
campaign of unfair competition” aimed at “deceiving
consumers and interfering with [Enigma’s] customer
relationships.”
Enigma’s complaint alleged four claims, three
under New York state law and one under federal
law. The first state-law claim accused Malwarebytes
of using deceptive business practices in violation of
New York General Business Law § 349. Enigma’s
second and third state-law claims alleged tortious
interference with business and contractual relations
in violation of New York state common law. The
federal claim accused Malwarebytes of making false
and misleading statements to deceive consumers into
choosing Malwarebytes’s security software over
Enigma’s, in violation of the Lanham Act, 15 U.S.C.
§ 1125(a)(1)(B).
Malwarebytes sought a change of venue. Although
Enigma maintained that venue was proper in New
York because Malwarebytes’s conduct affected users

42a
and computers within that state, the conduct at issue
had national reach. The district court therefore
granted Malwarebytes’s motion to transfer the case
to the Northern District of California, where
Malwarebytes is headquartered.
Malwarebytes then moved to dismiss for failure to
state a claim, arguing that it was immune from
liability under § 230(c)(2) of the CDA. The district
court granted the motion, finding that under the
reasoning of our decision in Zango, Malwarebytes
was immune under § 230 on all of Enigma’s claims.
The district court interpreted Zango to mean that
anti-malware software providers are free to block
users from accessing any material that those
providers, in their discretion, deem to be
objectionable. Given Malwarebytes’s status as a
provider of filtering software, and its assertion that
Enigma’s programs are potentially unwanted, the
district court held that Malwarebytes could not be
liable under state law for blocking users’ access to
Enigma’s programs.
With respect to the federal claim, the district court
had to consider the intellectual property exception to
the CDA’s immunity provision set forth in 47 U.S.C.
§ 230(e)(2). The somewhat opaque exception states
that § 230 immunity “shall not be construed to limit
or expand any law pertaining to intellectual
property.” Id. Enigma’s federal claim alleged false
advertising under the Lanham Act, and Enigma
contended that immunity did not apply because that
statute deals with intellectual property, i.e.
trademarks. The district court reasoned, however,
that although the Lanham Act itself deals with
intellectual property, Enigma’s false advertising

43a
claim did not relate to any type of intellectual
property and therefore § 230 immunity encompassed
that claim as well. Having concluded that
Malwarebytes was immune on all four claims, the
district court dismissed the complaint and granted
judgment for Malwarebytes.
On appeal, Enigma primarily contends that the
district court erred in interpreting our Zango opinion
to give online service providers unlimited discretion
to block online content, and that the Good Samaritan
blocking provision does not provide such sweeping
immunity that it encompasses anticompetitive
conduct.
DISCUSSION
I. Scope of § 230(c)(2) Immunity as Applied to
State-Law Claims
The district court held that our opinion in Zango
controlled, and interpreted Zango to mean that an
online-service provider cannot be liable for blocking
internet users from accessing online content that the
provider considers objectionable, regardless of the
provider’s motivations or the harmful effects of the
blocking. The scope of the statutory catchall phrase,
“otherwise objectionable,” was not at issue in Zango,
however. The central issue in Zango was whether
§ 230 immunity applies to filtering software
providers like the defendant Kaspersky in that case,
and both parties in this case. See 568 F.3d at 1173,
1176. We held such providers had immunity. Id. at
1177-78. At the end of our majority opinion, we
emphasized the relevant statutory language in
stating that § 230 permits providers to block
material “that either the provider or the user

44a
considers . . . objectionable.” See id. at 1177 (original
emphasis). The district court focused on that
sentence and reasoned that Malwarebytes had
unfettered discretion to select what criteria makes a
program “objectionable” under § 230, and further,
that the court was not to analyze Malwarebytes’s
reasons for doing so.
The majority in Zango did not, however, address
whether there were limitations on a provider’s
discretion to declare online content “objectionable.”
No such issue was raised in the appeal. We noted
that Zango “waived” the argument that its software
was not “objectionable.” See id. at 1176-77. We
therefore held that § 230 immunity covered
Kaspersky’s decision to block users from accessing
the type of content at issue in that case and
concluded that § 230 permits providers to block
material that “the provider considers . . .
objectionable.” Id. at 1177.
It was Judge Fisher’s concurring opinion in Zango
that framed the issue for future litigation as to
whether the term “objectionable” might be construed
in a way that would immunize providers even if they
blocked online content for improper reasons. See id.
at 1178-80 (Fisher, J. concurring). Judge Fisher
warned that extending immunity beyond the facts of
that case could “pose serious problems,” particularly
where a provider is charged with using § 230
immunity to advance an anticompetitive agenda. See
id. at 1178. He said that an “unbounded” reading of
the phrase “otherwise objectionable” would allow a
content provider to “block content for anticompetitive
purposes or merely at its malicious whim.” Id.

45a
District courts nationwide have grappled with the
issues discussed in Zango’s majority and concurring
opinions, and have reached differing results. Like the
district court in this case, at least two other federal
district courts have relied on Zango to dismiss
software-provider lawsuits against Malwarebytes
where the plaintiff claimed that Malwarebytes
improperly characterized the plaintiffs software as a
PUP. See PC Drivers Headquarters, LP v.
Malwarebytes Inc., 371 F. Supp. 3d 652 (N.D. Cal.
2019); PC Drivers Headquarters, LP v. Malwarebytes,
Inc., No. 1:18-CV-234-RP, 2018 WL 2996897, at *1
(W.D. Tex. Apr. 23, 2018).
Other district courts have viewed our holding in
Zango to be less expansive. See Song fi Inc. v. Google,
Inc., 108 F. Supp. 3d 876, 884 (N.D. Cal. 2015)
(noting that just because “the statute requires the
user or service provider to subjectively believe the
blocked or screened material is objectionable does
not mean anything or everything YouTube finds
subjectively objectionable is within the scope of
Section 230(c),” and concluding that, “[o]n the
contrary such an ‘unbounded’ reading . . . would
enable content providers to ‘block content for
anticompetitive reasons[.]”‘) (quoting Judge Fisher’s
concurrence in Zango); Sherman v. Yahoo! Inc., 997
F. Supp. 2d 1129, 1138 (S.D. Cal. 2014) (same); see
also Holomaxx Techs. v. Microsoft Corp., 783 F.
Supp. 2d 1097, 1104 (N.D. Cal. Mar. 11, 2011)
(acknowledging that a provider’s subjective
determination of what constitutes objectionable
material under § 230(c)(2) is not limitless, but
finding that the harassing emails in that case were
reasonably objectionable).

46a
We find these decisions recognizing limitations in
the scope of immunity to be persuasive. The courts
interpreting Zango as providing unlimited immunity
seem to us to have stretched our opinion in Zango too
far. This is because the focus of that appeal was
neither what type of material may be blocked, nor
why it may be blocked, but rather who benefits from
§ 230 immunity. The issue was whether § 230
immunity applies to filtering-software providers. See
Zango, 568 F.3d at 1173. We answered that question
in the affirmative, explaining that Kaspersky was
the type of “interactive computer service” to which
§ 230(c)(2) expressly referred, and that Kaspersky
was engaged in the type of conduct to which
§ 230(c)(2) generally applies. Id. at 1175-76.
As relevant here, the majority opinion in Zango
establishes only that Malwarebytes, as a filteringsoftware provider, is an entity to which the
immunity afforded by § 230 would apply. The
majority opinion does not require us to hold that we
lack the authority to question Malwarebytes’s
determinations of what content to block. We must
therefore in this case analyze § 230 to decide what
limitations, if any, there are on the ability of a
filtering software provider to block users from
receiving online programming.
The legal question before us is whether § 230(c)(2)
immunizes blocking and filtering decisions that are
driven by anticompetitive animus. The majority in
Zango had no occasion to address the issue, and the
parties in that case were not competitors. See 568 F.
3d at 1170 (explaining Kaspersky is a security
software provider; Zango provides an online service
for users to stream movies, video games, and music).

47a
This is the first § 230 case we are aware of that
involves direct competitors.
In this appeal, Enigma alleges that Malwarebytes
blocked Enigma’s programs for anticompetitive
reasons, not because the programs’ content was
objectionable within the meaning of § 230, and that
§ 230 does not provide immunity for anticompetitive
conduct. Malwarebytes’s position is that, given the
catchall, Malwarebytes has immunity regardless of
any anticompetitive motives.
We cannot accept Malwarebytes’s position, as it
appears contrary to CDA’s history and purpose.
Congress expressly provided that the CDA aims “to
preserve the vibrant and competitive free market
that presently exists for the Internet and other
interactive computer services” and to “remove
disincentives for the development and utilization of
blocking and filtering technologies.” § 230(b)(2)–(3).
Congress said it gave providers discretion to identify
objectionable content in large part to protect
competition, not suppress it. Id. In other words,
Congress wanted to encourage the development of
filtration technologies, not to enable software
developers to drive each other out of business.
In the infancy of the internet, the unwillingness of
Congress to spell out the meaning of “otherwise
objectionable” was understandable. The broad grant
of protective control over online content may have
been more readily acceptable in an era before the
potential magnitude of internet communication was
fully comprehended. Indeed, the fears of harmful
content at the time led Congress to enact, in the
same statute, an outright ban on the dissemination

48a
of online pornography, a ban which the Supreme
Court swiftly rejected as unconstitutional a year
later. See Reno v. ACLU, 521 U.S. at 877-79 (striking
down 47 U.S.C. § 223).
We must today recognize that interpreting the
statute to give providers unbridled discretion to
block online content would, as Judge Fisher warned,
enable and potentially motivate internet-service
providers to act for their own, and not the public,
benefit. See 568 F.3d at 1178 (Fisher, J., concurring).
Immunity for filtering practices aimed at
suppressing competition, rather than protecting
internet users, would lessen user control over what
information they receive, contrary to Congress’s
stated policy. See § 230(b)(3) (to maximize user
control over what content they view). Indeed, users
selecting a security software provider must trust
that the provider will block material consistent with
that user’s desires. Users would not reasonably
anticipate providers blocking valuable online content
in order to stifle competition. Immunizing
anticompetitive blocking would, therefore, be
contrary to another of the statute’s express policies:
“removing disincentives for the utilization of blocking
and filtering technologies.” Id. § 230(b)(4).
We therefore reject Malwarebytes’s position that
§ 230 immunity applies regardless of anticompetitive
purpose. But we cannot, as Enigma asks us to do,
ignore the breadth of the term “objectionable” by
construing it to cover only material that is sexual or
violent in nature. Enigma would have us read the
general, catchall phrase “otherwise objectionable” as
limited to the categories of online material described
in the seven specific categories that precede it. See 47

49a
U.S.C. § 230(c)(2) (describing material that is
“obscene, lewd, lascivious, filthy, excessively violent,
harassing or otherwise objectionable.”). Enigma
argues that its software has no such content, and
that Malwarebytes therefore cannot claim immunity
for blocking it.
Enigma relies on the principle of ejusdem generis,
which teaches that when a generic term follows
specific terms, the generic term should be construed
to reference subjects akin to those with the specific
enumeration. See, e.g., Norfolk & W. Ry. Co. v. Am.
Train Dispatchers Ass’n, 499 U.S. 117, 129 (1991).
But the specific categories listed in § 230(c)(2) vary
greatly: Material that is lewd or lascivious is not
necessarily similar to material that is violent, or
material that is harassing. If the enumerated
categories are not similar, they provide little or no
assistance in interpreting the more general category.
We have previously recognized this concept. See
Sacramento Reg’l Cty. Sanitation Dist. v. Reilly, 905
F.2d 1262, 1270 (9th Cir. 1990) (“Where the list of
objects that precedes the ‘or other’ phrase is
dissimilar, ejusdem generis does not apply”).
We think that the catchall was more likely
intended to encapsulate forms of unwanted online
content that Congress could not identify in the
1990s. But even if ejusdem generis did apply, it
would not support Enigma’s narrow interpretation of
“otherwise objectionable.” Congress wanted to give
internet users tools to avoid not only violent or
sexually explicit materials, but also harassing
materials. Spam, malware and adware could fairly
be placed close enough to harassing materials to at
least be called “otherwise objectionable” while still

50a
being faithful to the principle of ejusdem generis.
Several district courts have, for example, regarded
unsolicited marketing emails as “objectionable.” See,
e.g., Holomaxx, 783 F. Supp. 2d at 1104; e360Insight,
LLC v. Comcast Corp., 546 F. Supp. 2d 605, 608-610
(N.D. Ill. 2008); see also Smith v. Trusted Universal
Standards In Elec. Transactions, Inc., No. CIV094567-RBK-KMW, 2010 WL 1799456, at *6 (D.N.J.
May 4, 2010). But we do not, in this appeal,
determine the precise relationship between the term
“otherwise objectionable” and the seven categories
that precede it. We conclude only that if a provider’s
basis for objecting to and seeking to block materials
is because those materials benefit a competitor, the
objection would not fall within any category listed in
the statute and the immunity would not apply.
Malwarebytes’s fallback position is that, even if it
would lack immunity for anticompetitive blocking,
Malwarebytes has found Enigma’s programs
“objectionable” for legitimate reasons based on the
programs’ content. Malwarebytes asserts that
Enigma’s programs, SpyHunter and RegHunter, use
“deceptive tactics” to scare users into believing that
they have to download Enigma’s programs to prevent
their computers from being infected. Enigma alleges,
however, that its programs “pose no security threat”
and that Malwarebytes’s justification for blocking
these “legitimate” and “highly regarded” programs
was a guise for anticompetitive animus.
The district court interpreted our holding in Zango
to foreclose this debate entirely, implicitly reasoning
that if Malwarebytes has sole discretion to select
what programs are “objectionable,” the court need
not evaluate the reasons for the designation. Because

51a
we hold that § 230 does not provide immunity for
blocking a competitor’s program for anticompetitive
reasons, and because Enigma has specifically alleged
that the blocking here was anticompetitive, Enigma’s
claims survive the motion to dismiss. We therefore
reverse the dismissal of Enigma’s state-law claims
and we remand for further proceedings.
II. The Federal Claim and the
Intellectual Property Exception

CDA’s

Enigma’s fourth claim is a claim for false
advertising under the Lanham Act, a statute dealing
with a form of intellectual property, i.e. trademarks.
Enigma alleges that Malwarebytes publicly
mischaracterized Enigma’s programs SpyHunter and
RegHunter as potentially unwanted or PUPs, and it
did so in order to interfere with Enigma’s customer
base and divert those customers to Malwarebytes.
Section 230(e)(2) of the CDA contains an exception
to immunity for intellectual property claims. See 47
U.S.C. § 230(e)(2). This exception, known as the
intellectual property carve out, states that § 230
immunity shall not “limit or expand any law
pertaining to intellectual property.” Id. In light of
that exception, Enigma contends that immunity
would not bar Enigma’s Lanham Act claim, even if
immunity is available to Malwarebytes on the state
law claims. Although Enigma’s claim does not itself
involve an intellectual property right, Enigma
characterizes its federal false advertising claim as
one “pertaining to intellectual property” within the
meaning of § 230(e)(2) because the Lanham Act deals
with intellectual property. The district court rejected
this argument, and rightly so.

52a
This is because even though the Lanham Act is
known as the federal trademark statute, not all
claims brought under the statute involve
trademarks. The Act contains two parts, one
governing trademark infringement and another
governing false designations of origin, false
descriptions, and dilution. Compare 15 U.S.C. § 1114
(trademark infringement) with id. § 1125 (the rest).
The latter, § 1125, creates two bases of liability, false
association and false advertising. Compare § 1125
(a)(1)(A) (false association) with § 1125 (a)(1)(B)
(false advertising). Thus, although “much of the
Lanham Act addresses the registration, use, and
infringement of trademarks and related marks, . . .
§ 1125(a) is one of the few provisions that goes
beyond trademark protection.” Dastar Corp. v.
Twentieth Cent. Fox Film Corp., 539 U.S. 23, 28-29
(2003).
In this appeal, we must decide whether the
exception to immunity contained in § 230(e)(2)
applies to false advertising claims brought under the
Lanham Act. Our court has not addressed the issue,
although we have considered the exception as it
would apply to state law claims. See Perfect 10 v.
CCBill, LLC, 488 F.3d 1102, 1118-19 (9th Cir. 2009)
(concluding that the intellectual property exception
in § 230(e)(2) was not intended to cover intellectual
property claims brought under state law); see also
Gen. Steel Domestic Sales, L.L.C. v. Chumley, 840
F.3d 1178, 1182 (10th Cir. 2016) (declining to
analyze the intellectual property exception;
explaining that because “§ 230 does not contain the
grant of immunity from suit contended for, it is
unnecessary to discuss its applicability to the
Lanham Act false advertising claims”).

53a
We have observed before that because Congress did
not define the term “intellectual property law,” it
should be construed narrowly to advance the CDA’s
express policy of providing broad immunity See
Perfect 10, 488 F.3d at 1119. One of these express
policy reasons for providing immunity was, as
Congress stated in § 230(b)(2), “to preserve the
vibrant and competitive free market that presently
exists for the Internet and other interactive
computer services, unfettered by Federal or State
regulation.” 47 U.S.C. § 230(b)(2). The intellectual
property exception is a limitation on immunity, and
the CDA’s stated congressional purpose counsels
against an expansive interpretation of the exception
that would diminish the scope of immunity If the
intellectual property law exception were to
encompass any claim raised under the Lanham Act—
including false advertising claims that do not directly
involve intellectual property rights—it would create
a potential for new liability that would upset, rather
than “preserve” the vibrant culture of innovation on
the internet that Congress envisioned. Id.
We therefore hold that the intellectual property
exception contained in § 230(e)(2) encompasses
claims pertaining to an established intellectual
property right under federal law, like those inherent
in a patent, copyright, or trademark. The exception
does not apply to false advertising claims brought
under § 1125(a) of the Lanham Act, unless the claim
itself involves intellectual property.
Here, Enigma’s Lanham Act claim derives from the
statute’s false advertising provision. Enigma alleges
that Malwarebytes mischaracterized Enigma’s most
popular software programs in order to divert

54a
Enigma’s customers to Malwarebytes. These
allegations do not relate to or involve trademark
rights or any other intellectual property rights. Thus,
Enigma’s false advertising claim is not a claim
“pertaining to intellectual property law” within the
meaning of § 230(e)(2). The district court correctly
concluded that the intellectual property exception to
immunity does not encompass Enigma’s Lanham Act
claim.
The district court went on to hold, however, as it
did with the state law claims, that Malwarebytes is
nevertheless immune from liability under our
decision in Zango. As we have explained with respect
to the state law claims, Zango did not define an
unlimited scope of immunity under § 230, and
immunity under that section does not extend to
anticompetitive conduct. Because the federal claim,
like the state claims, is based on allegations of such
conduct, the federal claim survives dismissal. We
therefore reverse the district court’s judgment in
favor of Malwarebytes and remand for further
proceedings on this claim as well.
CONCLUSION
The judgment of the district court is reversed and
the case is remanded for further proceedings
consistent with this opinion.
REVERSED and REMANDED.

55a
RAWLINSON, Circuit Judge, dissenting:
In his concurring opinion in Zango, Inc. v.
Kaspersky Lab, Inc., 568 F.3d 1169, 1179-80 (9th Cir.
2009), Judge Fisher acknowledged that “until
Congress clarifies the statute or a future litigant
makes the case for a possible limitation,” the
“broadly worded” Communications Decency Act (the
Act) afforded immunity to a distributor of Internet
security software. Congress has not further clarified
the statute and Enigma Software has not
persuasively made a case for limitation of the statute
beyond its provisions.
The majority opinion seeks to limit the statute
based on the fact that the parties are competitors.
See Majority Opinion, p. 4. However, nothing in the
statutory provisions or our majority opinion in Zango
supports such a distinction. Rather the “broad
language” of the Act specifically encompasses “any
action voluntarily taken [by a provider] to restrict
access to . . . material that the provider . . . considers
to be . . . otherwise objectionable.” 47 U.S.C.
§ 230(c)(2)(A) (emphasis added). Under the language
of the Act, so long as the provider’s action is taken to
remove “otherwise objectionable” material, the
restriction of access is immunized. See id. The
majority’s real complaint is not that the district court
construed the statute too broadly, but that the
statute is written too broadly. However, that defect,
if it is a defect, is one beyond our authority to correct.
See Baker Botts LLP v. ASARCO LLC, 135 S. Ct.
2158, 2169 (2015).
In particular, the majority holds that the criteria
for blocking online material may not be based on the

56a
identity of the entity that produced it. See Majority
Opinion, p. 10. Unfortunately, however, that
conclusion cannot be squared with the broad
language of the Act. Under the language of the
statute, if the blocked content is “otherwise
objectionable” to the provider, the Act bestows
immunity. Zango, 568 F.3d at 1173 (“[T]he statute
plainly immunizes from suit a provider of interactive
computer services that makes available software
that filters or screens material that the user or the
provider deems objectionable.”) (emphasis in the
original); 1174 (“According protection to providers of
programs that filter adware and malware is also
consistent with the Congressional goals for immunity
articulated in [47 U.S.C.] § 230 itself.”). Although the
parties were not direct competitors, the plaintiff in
Zango asserted similar anti-competition effects. See
id. at 1171-72. The majority’s policy arguments are
in conflict with our recognition in Zango that the
broad language of the Act is consistent with “the
Congressional goals for immunity” as expressed in
the language of the statute. Id. at 1174. As the
district court cogently noted, we “must presume that
a legislature says in a statute what it means and
means in a statute what it says there.” Connecticut
Nat’l Bank v. Germain, 503 U.S. 249, 253-54 (1992)
(citations omitted).
I respectfully dissent.

57a
APPENDIX C
_________
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
SAN JOSE DIVISION
_________
ENIGMA SOFTWARE GROUP USA LLC,
Plaintiff,
v.
MALWAREBYTES INC.,
Defendant.
_________
Case No. 5:17-cv-02915-EJD
_________
Filed: November 7, 2017
_________
ORDER GRANTING DEFENDANT’S MOTION
TO DISMISS
Re: Dkt. No. 97
_________
Plaintiff Enigma Software Group USA LLC
(“Enigma”) brings claims against Defendant
Malwarebytes Inc. based on its allegation that
Malwarebytes unlawfully characterized Enigma’s
software as harmful to users’ computers.
Malwarebytes now moves to dismiss under Fed. R.
Civ. P. 12(b)(6). Malwarebytes’s motion will be
granted.

58a
I.

BACKGROUND

Malwarebytes develops software that protects
internet users from malware, adware, and other
unwanted computer programs. First Am. Compl.
(“FAC”) ¶¶ 3, 36, Dkt. No. 33. Malwarebytes’s
software scans users’ computers for “potentially
unwanted programs,” which it automatically flags
and quarantines. Id. ¶ 5. When the software detects
an unwanted program, it displays a notification and
asks the user if she wants to remove the program
from her computer. Id.
Enigma also provides anti-malware software to
internet users. Id. ¶ 4. Enigma alleges that, in 2016,
Malwarebytes revised the criteria it uses to identify
unwanted programs. Id. ¶ 7. Under the new criteria,
Malwarebytes’s
software
identifies
Enigma’s
software as a potential threat. Id. Enigma alleges
that Malwarebytes’s classification of Enigma’s
software is wrong because Enigma’s programs “are
legitimate and pose no security threat to users’
computers.” Id. ¶ 9. Enigma alleges that
Malwarebytes revised its criteria to interfere with
Enigma’s customer base and to retaliate against
Enigma for a separate lawsuit Enigma filed against
a Malwarebytes affiliate. Id. ¶¶ 8, 19–20.
On that basis, Enigma brings claims for (1) false
advertising in violation of § 43(a) of the Lanham Act
(FAC ¶¶ 134–43), (2) violations of New York General
Business Law § 3491 (FAC ¶¶ 144–50), (3) tortious
interference with contractual relations (FAC ¶¶ 151–
1

This case was transferred from the Southern District of New
York on May 12, 2017. Dkt. No. 67.

59a
160), and (4) tortious interference with business
relations (FAC ¶¶ 161–68).
Malwarebytes now moves to dismiss under Fed. R.
Civ. P. 12(b)(6). Def.’s Mot. to Dismiss (“MTD”), Dkt.
No. 97.
II.

LEGAL STANDARD

A motion to dismiss under Fed. R. Civ. P. 12(b)(6)
tests the legal sufficiency of claims alleged in the
complaint. Parks Sch. of Bus., Inc. v. Symington, 51
F.3d 1480, 1484 (9th Cir. 1995). Dismissal “is proper
only where there is no cognizable legal theory or an
absence of sufficient facts alleged to support a
cognizable legal theory.” Navarro v. Block, 250 F.3d
729, 732 (9th Cir. 2001). The complaint “must
contain sufficient factual matter, accepted as true, to
‘state a claim to relief that is plausible on its face.’ ”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)).
III. DISCUSSION
Malwarebytes argues that all of Enigma’s claims
are barred by the immunity provisions of § 230(c)(2)
of the Communications Decency Act. Mot. 7. That
section provides:
No provider or user of an interactive computer
service shall be held liable on account of—
(A) any action voluntarily taken in good
faith to restrict access to or availability of
material that the provider or user considers
to be obscene, lewd, lascivious, filthy,
excessively violent, harassing, or otherwise

60a
objectionable, whether or not such material
is constitutionally protected; or
(B) any action taken to enable or make
available to information content providers
or others the technical means to restrict
access to material described in paragraph
(1).
47 U.S.C. § 230(c)(2). Congress enacted these
provisions “to encourage the development of
technologies which maximize user control over what
information is received by individuals, families, and
schools who use the Internet,” and to encourage
“development and utilization of blocking and filtering
technologies.” Id. § 230(b)(3), (4).
Malwarebytes
argues
that
this
case
is
“indistinguishable” from the Ninth Circuit’s opinion
in Zango interpreting § 230(c)(2). Mot. 8; Zango, Inc.
v. Kaspersky, 568 F.3d 1169 (9th Cir. 2009). In that
case, Zango alleged that Kaspersky’s anti-malware
software incorrectly classified Zango’s software as
harmful. Zango, 568 F.3d at 1170–71. The Ninth
Circuit considered whether “companies that provide
filtering tools,” such as Kaspersky, are eligible for
immunity under § 230(c). Id. at 1173. The panel first
explained that providers of blocking software are
eligible for § 230(c)(2) immunity as long as they meet
the statutory requirements. Id. at 1173–75. Next, it
found that Kaspersky was an “interactive computer
service” within the meaning of the statute. Id. at
1175–76. It also found that Kaspersky “has ‘made
available’ for its users the technical means to restrict
items that Kaspersky has defined as malware.” Id. at
1176. The panel found that Kaspersky qualified for

61a
immunity under § 230(c)(2)(B) “so long as the
blocked items are objectionable material under
§ 230(c)(2)(A).” Id. It concluded that Kaspersky
properly classified malware as “objectionable”
material, and as such, it found that Kaspersky
satisfied the requirements for immunity under
§ 230(c)(2)(B). Id. at 1177–78 (holding that any
“provider of access tools that filter, screen, allow, or
disallow content that the provider or user considers
obscene, lewd, lascivious, filthy, excessively violent,
harassing, or otherwise objectionable is protected
from liability by 47 U.S.C. § 230(c)(2)(B) for any
action taken to make available to others the
technical means to restrict access to that material”).
Enigma argues that Zango is distinguishable in
two respects. First, Enigma argues that malware, as
defined by Malwarebytes’s criteria, is not one of the
types of materials to which § 230(c)(2) immunity
applies. Pl.’s Opp’n to Def.’s Mot. to Dismiss
(“Opp’n”) 11–12, 14, Dkt. No. 100. By its terms,
§ 230(c)(2)(A) applies to material that is “obscene,
lewd,
lascivious,
filthy,
excessively
violent,
harassing, or otherwise objectionable.” § 230(c)(2)(B)
applies to the same material.2 Enigma argues that
malware is not within the scope of “objectionable”
material because it is “not remotely related to the
content categories enumerated” in subsection (A)
(i.e., materials that are “obscene, lewd, lascivious,”
and so on). Opp’n 10. Enigma further argues that
2

Subsection (B) refers to “material described in paragraph
(1).” This is a typo in the statute; it should read: “material
described in paragraph (A).” See Zango, 568 F.3d at 1173 n.5
(“ ‘paragraph (1)’ is a scrivener’s error referring to ‘paragraph
(A)’ ”).

62a
Zango did not address whether an anti-malware
provider has discretion to decide what is
“objectionable,” because, as the Ninth Circuit noted,
Zango waived that argument by failing to raise it in
its opening appellate brief. Id.; Zango, 568 F.3d at
1175–76.
However, while it is true that the Zango panel
found that Zango waived this argument, Enigma
overlooks Zango’s clear holding that § 230(c)(2)(B)
immunity applies to “a provider of computer services
that makes available software that filters or screens
material that the user or the provider deems
objectionable.” Zango, 568 F.3d at 1173 (emphasis in
original); see also id. at 1177 (holding that immunity
applies to material “that the provider or user
considers . . . objectionable”) (emphasis added); id.
(immunity applies to “material that either the user
or the provider deems objectionable”) (emphasis in
original). This interpretation of Zango aligns with
the plain language of the statute, which likewise
states that immunity applies to “material that the
provider or user considers to be . . . objectionable.” 47
U.S.C. § 230(c)(2)(A) (emphasis added). In Zango, the
provider of the anti-malware software, Kaspersky,
exercised its discretion to select the criteria it would
use to identify objectionable computer programs. The
Ninth Circuit held that malware, as Kaspersky
defined it, was properly within the scope of
“objectionable” material. In that respect, the Court
agrees with Malwarebytes that Zango is factually
indistinguishable from the scenario here.
Second, Enigma argues that Malwarebytes is
entitled to § 230(c)(2)(B) immunity only if it acted in
“good faith.” Opp’n 11–14. Subsection (A) protects

63a
“any action voluntarily taken in good faith” to
restrict access to objectionable material (emphasis
added). Subsection (B) does not contain a good-faith
requirement. Nonetheless, Enigma argues that good
faith is “an implied requirement in subsection (B)
that is part and parcel of the proper, plain meaning
of the statute when read as a whole.” Opp’n 14. The
Zango court did not decide whether subsection (B)
contains a good-faith requirement, since Zango
waived that argument on appeal and the panel did
not need to resolve it to reach its decision. Zango, 568
F.3d at 1177. However, as the panel recognized,
subsection (B) “has no good faith language.” Id. Here,
the Court must assume that Congress acted
intentionally when it decided to include a good-faith
requirement in subsection (A) but not in (B). See,
e.g., Conn. Nat’l Bank v. Germain, 503 U.S. 249,
253–54 (1992) (“[I]n interpreting a statute a court
should always turn first to one, cardinal canon before
all others. We have stated time and again that courts
must presume that a legislature says in a statute
what it means and means in a statute what it says
there.”); Bailey v. United States, 516 U.S. 137, 146
(1995) (“The difference between the two provisions
demonstrates that, had Congress meant to broaden
application of the statute . . . , Congress could and
would have so specified.”). This reading is bolstered
by the fact that subsection (B) includes an explicit
reference to subsection (A) with respect to the types
of material to which immunity applies. Congress
could have included a similar reference in subection
(B) to subsection (A)’s good-faith requirement, but it
chose not to. As such, the Court agrees with
Malwarebytes that it need not consider whether
Malwarebytes acted in good faith for the purposes of

64a
deciding whether Malwarebytes is entitled to
immunity under § 230(c)(2)(B). Def.’s Reply in
Support of Mot. to Dismiss (“Reply”) 5–7, Dkt. No.
102.
Enigma argues Malwarebytes is nonetheless
ineligible for immunity with respect to Enigma’s
Lanham Act claim (FAC ¶¶ 134–143) because § 230
provides that “nothing in [§ 230] shall be construed
to limit or expand any law pertaining to intellectual
property.” 47 U.S.C. § 230(e)(2); Opp’n 15.3 Enigma’s
argument fails because its complaint does not allege
an intellectual property claim. The Lanham Act
contains two parts: one governing trademark
infringement (15 U.S.C. § 1114) and one governing
unfair competition (15 U.S.C. § 1125(a)). The unfair
competition provision, in turn, “creates two distinct
bases of liability”: one governing false association (15
U.S.C. § 1125(a)(1)(A)) and one governing false
advertising (15 U.S.C. § 1125(a)(1)(B)). Lexmark
Int’l, Inc. v. Static Control Components, Inc., 134 S.
Ct. 1377, 1384 (2014). Enigma’s complaint asserts a
false advertising claim under § 1125(a)(1)(B). FAC
¶ 135. Enigma does not assert claims under the
trademark provisions of the Lanham Act. The
complaint does not allege that Enigma owns
trademarks or any other form of intellectual
property, nor does it allege that Malwarebytes has
committed any form of intellectual property
infringement, including misuse of its trademarks.
Accordingly, the Court finds that Enigma’s false
3

Enigma does not dispute that immunity would apply to its
other three claims for business torts. Opp’n 15; see also Zango,
568 F.3d at 1177 (“we have interpreted § 230 immunity to cover
business torts”).

65a
advertising claim under the Lanham Act, 15 U.S.C. §
1125(a)(1)(B), does not arise under a “law pertaining
to intellectual property” under 47 U.S.C. § 230(e)(2).
See Perfect 10, Inc. v. CCBill, LLC, 340 F. Supp. 2d
1077, 1109–10 (C.D. Cal. 2004) (“Since false
advertising . . . does not pertain to intellectual
property rights, the Court finds that the immunity
provided under the CDA for [the plaintiff’s] false
advertising claim is not excluded under § 230(e)(2).”).
IV. CONCLUSION
Because Malwarebytes is entitled to immunity
under 47 U.S.C. § 230(c)(2)(B) with respect to all of
Enigma’s claims, Malwarebytes’s motion to dismiss
is GRANTED. The Clerk shall close this file.
IT IS SO ORDERED.
Dated: November 7, 2017
/s/
EDWARD J. DAVILA
United States District Judge

66a
APPENDIX D
_________
STATUTORY PROVISIONS INVOLVED
_________
1.

47 U.S.C. § 230 provides:

Protection for private blocking and screening
of offensive material
(a) Findings
The Congress finds the following:
(1) The rapidly developing array of Internet and
other interactive computer services available to
individual Americans represent an extraordinary
advance in the availability of educational and
informational resources to our citizens.
(2) These services offer users a great degree of
control over the information that they receive, as
well as the potential for even greater control in the
future as technology develops.
(3) The Internet and other interactive computer
services offer a forum for a true diversity of political
discourse, unique opportunities for cultural
development, and myriad avenues for intellectual
activity.
(4) The Internet and other interactive computer
services have flourished, to the benefit of all
Americans, with a minimum of government
regulation.
(5) Increasingly Americans are relying on
interactive media for a variety of political,
educational, cultural, and entertainment services.

67a
(b) Policy
It is the policy of the United States—
(1) to promote the continued development of the
Internet and other interactive computer services and
other interactive media;
(2) to preserve the vibrant and competitive free
market that presently exists for the Internet and
other interactive computer services, unfettered by
Federal or State regulation;
(3) to encourage the development of technologies
which maximize user control over what information
is received by individuals, families, and schools who
use the Internet and other interactive computer
services;
(4) to remove disincentives for the development
and utilization of blocking and filtering technologies
that empower parents to restrict their children’s
access to objectionable or inappropriate online
material; and
(5) to ensure vigorous enforcement of Federal
criminal laws to deter and punish trafficking in
obscenity, stalking, and harassment by means of
computer.
(c) Protection for ‘‘Good Samaritan’’ blocking
and screening of offensive material
(1) Treatment of publisher or speaker
No provider or user of an interactive computer
service shall be treated as the publisher or speaker
of any information provided by another information
content provider.

68a
(2) Civil liability
No provider or user of an interactive computer
service shall be held liable on account of—
(A) any action voluntarily taken in good faith to
restrict access to or availability of material that the
provider or user considers to be obscene, lewd,
lascivious, filthy, excessively violent, harassing, or
otherwise objectionable, whether or not such
material is constitutionally protected; or
(B) any action taken to enable or make available
to information content providers or others the
technical means to restrict access to material
described in paragraph (1).1
(d) Obligations of interactive computer service
A provider of interactive computer service shall, at
the time of entering an agreement with a customer
for the provision of interactive computer service and
in a manner deemed appropriate by the provider,
notify such customer that parental control
protections (such as computer hardware, software, or
filtering services) are commercially available that
may assist the customer in limiting access to
material that is harmful to minors. Such notice shall
identify, or provide the customer with access to
information identifying, current providers of such
protections.
(e) Effect on other laws
(1) No effect on criminal law

1

So in original. Probably should be “subparagraph (A).”

69a
Nothing in this section shall be construed to impair
the enforcement of section 223 or 231 of this title,
chapter 71 (relating to obscenity) or 110 (relating to
sexual exploitation of children) of title 18, or any
other Federal criminal statute.
(2) No effect on intellectual property law
Nothing in this section shall be construed to limit
or expand any law pertaining to intellectual property.
(3) State law
Nothing in this section shall be construed to
prevent any State from enforcing any State law that
is consistent with this section. No cause of action
may be brought and no liability may be imposed
under any State or local law that is inconsistent with
this section.
(4) No effect on communications privacy law
Nothing in this section shall be construed to limit
the application of the Electronic Communications
Privacy Act of 1986 or any of the amendments made
by such Act, or any similar State law.
(5) No effect on sex trafficking law
Nothing in this section (other than subsection
(c)(2)(A)) shall be construed to impair or limit—
(A) any claim in a civil action brought under
section 1595 of title 18, if the conduct underlying
the claim constitutes a violation of section 1591 of
that title;
(B) any charge in a criminal prosecution brought
under State law if the conduct underlying the

70a
charge would constitute a violation of section 1591
of title 18; or
(C) any charge in a criminal prosecution brought
under State law if the conduct underlying the
charge would constitute a violation of section
2421A of title 18, and promotion or facilitation of
prostitution is illegal in the jurisdiction where the
defendant’s promotion or facilitation of prostitution
was targeted.
(f) Definitions
As used in this section:
(1) Internet
The term ‘‘Internet’’ means the international
computer network of both Federal and non-Federal
interoperable packet switched data networks.
(2) Interactive computer service
The term ‘‘interactive computer service’’ means any
information service, system, or access software
provider that provides or enables computer access by
multiple users to a computer server, including
specifically a service or system that provides access
to the Internet and such systems operated or
services offered by libraries or educational
institutions.
(3) Information content provider
The term ‘‘information content provider’’ means
any person or entity that is responsible, in whole or
in part, for the creation or development of
information provided through the Internet or any
other interactive computer service.

71a
(4) Access software provider
The term ‘‘access software provider’’ means a
provider of software (including client or server
software), or enabling tools that do any one or more
of the following:
(A) filter, screen, allow, or disallow content;
(B) pick, choose, analyze, or digest content; or
(C) transmit, receive, display, forward, cache,
search, subset, organize, reorganize, or translate
content.

72a
2.

47 U.S.C. § 230 (2012) provides:

Protection for private blocking and screening
of offensive material
a) Findings
The Congress finds the following:
(1) The rapidly developing array of Internet and
other interactive computer services available to
individual Americans represent an extraordinary
advance in the availability of educational and
informational resources to our citizens.
(2) These services offer users a great degree of
control over the information that they receive, as
well as the potential for even greater control in the
future as technology develops.
(3) The Internet and other interactive computer
services offer a forum for a true diversity of political
discourse, unique opportunities for cultural
development, and myriad avenues for intellectual
activity.
(4) The Internet and other interactive computer
services have flourished, to the benefit of all
Americans, with a minimum of government
regulation.
(5) Increasingly Americans are relying on
interactive media for a variety of political,
educational, cultural, and entertainment services.
(b) Policy
It is the policy of the United States—

73a
(1) to promote the continued development of the
Internet and other interactive computer services and
other interactive media;
(2) to preserve the vibrant and competitive free
market that presently exists for the Internet and
other interactive computer services, unfettered by
Federal or State regulation;
(3) to encourage the development of technologies
which maximize user control over what information
is received by individuals, families, and schools who
use the Internet and other interactive computer
services;
(4) to remove disincentives for the development
and utilization of blocking and filtering technologies
that empower parents to restrict their children’s
access to objectionable or inappropriate online
material; and
(5) to ensure vigorous enforcement of Federal
criminal laws to deter and punish trafficking in
obscenity, stalking, and harassment by means of
computer.
(c) Protection for ‘‘Good Samaritan’’ blocking
and screening of offensive material
(1) Treatment of publisher or speaker
No provider or user of an interactive computer
service shall be treated as the publisher or speaker
of any information provided by another information
content provider.
(2) Civil liability

74a
No provider or user of an interactive computer
service shall be held liable on account of—
(A) any action voluntarily taken in good faith to
restrict access to or availability of material that the
provider or user considers to be obscene, lewd,
lascivious, filthy, excessively violent, harassing, or
otherwise objectionable, whether or not such
material is constitutionally protected; or
(B) any action taken to enable or make available
to information content providers or others the
technical means to restrict access to material
described in paragraph (1).1
(d) Obligations of interactive computer service
A provider of interactive computer service shall,
at the time of entering an agreement with a
customer for the provision of interactive computer
service and in a manner deemed appropriate by the
provider, notify such customer that parental
control protections (such as computer hardware,
software, or filtering services) are commercially
available that may assist the customer in limiting
access to material that is harmful to minors. Such
notice shall identify, or provide the customer with
access to information identifying, current providers
of such protections.
(e) Effect on other laws
(1) No effect on criminal law
Nothing in this section shall be construed to
impair the enforcement of section 223 or 231 of
1

So in original. Probably should be “subparagraph (A).”

75a
this title, chapter 71 (relating to obscenity) or 110
(relating to sexual exploitation of children) of title
18, or any other Federal criminal statute.
(2) No effect on intellectual property law
Nothing in this section shall be construed to
limit or expand any law pertaining to intellectual
property.
(3) State law
Nothing in this section shall be construed to
prevent any State from enforcing any State law
that is consistent with this section. No cause of
action may be brought and no liability may be
imposed under any State or local law that is
inconsistent with this section.
(4) No effect on communications privacy law
Nothing in this section shall be construed to
limit the application of the Electronic
Communications Privacy Act of 1986 or any of the
amendments made by such Act, or any similar
State law.
(f) Definitions
As used in this section:
(1) Internet
The term ‘‘Internet’’ means the international
computer network of both Federal and nonFederal interoperable packet switched data
networks.

76a
(2) Interactive computer service
The term ‘‘interactive computer service’’ means
any information service, system, or access
software provider that provides or enables
computer access by multiple users to a computer
server, including specifically a service or system
that provides access to the Internet and such
systems operated or services offered by libraries
or educational institutions.
(3) Information content provider
The term ‘‘information content provider’’ means
any person or entity that is responsible, in whole
or in part, for the creation or development of
information provided through the Internet or any
other interactive computer service.
(4) Access software provider
The term ‘‘access software provider’’ means a
provider of software (including client or server
software), or enabling tools that do any one or
more of the following:
(A) filter, screen, allow, or disallow content;
(B) pick, choose, analyze, or digest content; or
(C) transmit, receive, display, forward, cache,
search, subset, organize, reorganize, or
translate content.

